Report No. DODIG-2012-125               September 11, 2012




        Inappropriate Leasing for the General Fund
         Enterprise Business System Office Space
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
ACA                           Army Contracting Agency
ACC                           Army Contracting Command
ACC-NCR                       Army Contracting Command–National Capital Region
                                Contracting Center
ADA                           Antideficiency Act
ASA(ALT)                      Assistant Secretary of the Army (Acquisition, Logistics,
                                and Technology)
COR                           Contracting Officer’s Representative
GFEBS                         General Fund Enterprise Business System
GSA                           General Services Administration
NCR                           National Capital Region
O&M                           Operation and Maintenance
OGC                           Office of General Counsel
PEO EIS                       Program Executive Office Enterprise Information Systems
RDT&E                         Research, Development, Test, and Evaluation
U.S.C.                        United States Code
WHS                           Washington Headquarters Services
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                              September 11, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                TECHNOLOGY, AND LOGISTICS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Inappropriate Leasing for the General Fund Enterprise Business System Office
         Space (Repmi No. DODIG-2012-125)

We are providing this report for your information and use. Program Executive Office Enterprise
Information Systems personnel circumvented congressional and DoD oversight of leased space
when the contracting officer inappropriately modified the General Fund Enterprise Business
System contract to include leased office space. As a result, the Army incmTed $23.6 million in
improper lease payments, and inappropriately used at least $4.7 million in Research,
Development, Test, and Evaluation funds for building modifications associated with the
Kingstowne, VA office space. We considered management comments on a draft of this repmt
when preparing the final rep mi. The Army comments conformed to the requirements of DoD
Directive 7650.3 and left no umesolved issues. Therefore, we do not require any additional
comments.

We appreciate the comiesies extended to the staff. Please direct questions to me at
(703) 604-8938.



                                            ~            r-,,       J..., l
                                            Richard B. Vasquez, CPA
                                            Acting Assistant Inspector General
                                            Financial Management and Repmting
Report No. DODIG-2012-125 (Project No. D2011-D000FL-0262.000)                September 11, 2012


               Results in Brief: Inappropriate Leasing for
               the General Fund Enterprise Business
               System Office Space
                                                          Equipment,” Title 10, United States Code, when
What We Did                                               they used at least $4.7 million in Research,
We performed this audit to determine whether              Development, Test, and Evaluation funds for
the Army properly modified the General Fund               building modifications to the Kingstowne office
Enterprise Business System (GFEBS) contract to            space. As a result of inappropriately authorizing
include funding for leased space for the GFEBS            Operation and Maintenance funds and using
Project Office. In addition, we determined                funding for purposes other than those authorized,
whether the Army appropriately funded the                 GFEBS and PEO EIS personnel may have
modifications.                                            violated the Antideficiency Act (ADA).

What We Found                                             What We Recommend
The Army inappropriately modified the GFEBS               Army Acquisition and Logistics officials should
contract to obtain and modify leased space for            coordinate with their General Counsel and DoD
the Kingstowne, Virginia, office. Specifically,           General Counsel to determine the legal effects of
the GFEBS contracting officer improperly                  the inappropriate lease and determine whether
entered into an agreement with the contractor to          any additional potential ADA violations have
lease office space in the National Capital Region         occurred.
for GFEBS program personnel.
                                                          PEO EIS officials should obtain ratification of
This occurred because the GFEBS contracting               the contract by the General Services
officer approved the addition of the leased space         Administration. If not ratified, the Secretary of
to the GFEBS contract without first making sure           the Army should take appropriate action to
that Program Executive Office Enterprise                  resolve the improper payments.
Information Systems (PEO EIS) personnel met
all legal requirements.                                   Army Contracting executives should require that
                                                          contracting officers maintain documentation
As a result, PEO EIS personnel circumvented               authorizing the lease before awarding DoD
congressional and DoD oversight processes for             contracts for the leasing of office space in the
leased office space, resulting in the authorization       National Capital Region.
of $23.6 million in improper payments. Also, the
U.S. Government potentially lost approximately            Army Comptroller officials should report and
$0.5 million in interest when the GFEBS                   initiate a review of the potential ADA violations.
contracting officer’s representative authorized
payments of the lease in advance.                         Management Comments and
                                                          Our Response
In addition, GFEBS personnel inappropriately              Army management agreed with our
authorized $5.5 million in annual Operation and           recommendations. We considered their
Maintenance funds for lease payments for the              comments to be responsive. Please see the
Kingstowne office. Further, PEO EIS personnel             recommendations table on the back of this page.
violated Section 2353 “Contracts: Acquisition,
Construction, or Furnishing of Test Facilities and

                                                      i
Report No. DODIG-2012-125 (Project No. D2011-D000FL-0262.000)    September 11, 2012

Recommendations Table

         Management                  Recommendations       No Additional Comments
                                    Requiring Comment            Required
Assistant Secretary of the Army                            A.1
(Acquisition, Logistics, and
Technology)
Deputy Assistant Secretary of the                          B.1.a, B.1.b, B.2, B.3
Army (Financial Operations),
Office of the Assistant Secretary
of the Army (Financial
Management and Comptroller)
Program Executive Officer,                                 A.2
Enterprise Information Systems
Executive Director, Army                                   A.3
Contracting Command–National
Capital Region Contracting
Center




                                         ii
Table of Contents

Introduction                                                                     1     


       Audit Objectives                                                          1

       Background                                                                1     

       Review of Internal Controls                                               3


Finding A. Army Inappropriately Modified the GFEBS Contract to 

Include Leased Space                                                             4


       Improper Leasing of Office Space                                          4

       Contracting Officer Did Not Ensure Compliance With 

         Legal Requirements                                                      6

       Circumvention of Oversight and Improper Payments Made                     6

       Recommendations, Management Comments, and Our Response                    9


Finding B. Potential ADA Violations for Lease Payments and 

Building Modifications for the Kingstowne Office                                11 


       O&M Funds Not Available for Lease Expenses                               11 

       Use of RDT&E Funds                                                       12 

       Potential Antideficiency Act Violations                                  12 

       Recommendations, Management Comments, and Our Response                   13 


Appendix. Scope and Methodology                                                 15 


       Prior Coverage on Inappropriate Leasing Arrangements                     15 


Management Comments
     Assistant Secretary of the Army (Acquisition, Logistics, and Technology)   16 

     Deputy Assistant Secretary of the Army (Financial Operations)              18 

     Army Contracting Command – National Capital Region                         20 

Introduction
Audit Objectives
Our objective was to determine whether the Army properly modified the General Fund
Enterprise Business System (GFEBS) contract to include funding for leased space for the
GFEBS Project Office. In addition, we determined whether the Army appropriately
funded the modifications. See the Appendix for a discussion of the scope and
methodology and prior audit coverage on inappropriate leasing arrangements.

Background
GFEBS is a Web-based system that allows the Army to share financial and accounting
data across the Service. With more than 50,000 end users at nearly 200 Army financial
centers around the world, when fully implemented, GFEBS will be one of the world’s
largest enterprise financial systems. As GFEBS replaces many, largely incompatible,
legacy accounting and financial management systems, it will eventually enable the Army
to manage $140 billion in spending by the Active Army, Army National Guard, and
Army Reserves.

The primary goal of GFEBS is to capture transactions and provide reliable data to enable
Army leadership to make better decisions in support of the warfighting capability.
According to the Army, GFEBS will bring significant change by providing new ways to
collect business and financial information; providing enhanced ways to conduct financial
analysis; and enabling improved capabilities for the delivery of financial services,
accounting processes, asset management, budgeting, and cost management.

GFEBS Contract Requirements
On June 28, 2005, the Army Contracting Agency (ACA) awarded task order D001 under
contract N00104-04-A-ZF12 (GFEBS contract) to Accenture, LLP (contractor) for the
development, implementation, and operation of GFEBS. The GFEBS contract required
the contractor, as the system integrator, to establish an office for the GFEBS program
management within 10 miles of Fort Belvoir, Virginia. It required the facility to be able
to accommodate 50 personnel (40 GFEBS Project Office personnel and 10 temporary
working spaces). Personnel at this location would perform program management
oversight efforts and development and test efforts for GFEBS.

The GFEBS contract also required the Army to provide a GFEBS project office at or near
the Defense Finance and Accounting Service Indianapolis facility. The majority of the
business process reengineering work was to be performed at this Indianapolis GFEBS
project office. The Indianapolis GFEBS project office was to accommodate up to
150 GFEBS personnel (U.S. Government, U.S. Government support contractor, and
system integrator personnel). According to Program Executive Office Enterprise
Information Systems (PEO EIS) personnel, GFEBS personnel were notified in
January 2006 that space for the Indianapolis GFEBS project office would no longer be


                                            1

available as a result of the Base Realignment and Closure project. As a result, the Army
attempted to consolidate 532 GFEBS personnel, which included an additional 332 system
integrator personnel, into a facility on Fort Belvoir. However, Fort Belvoir Installation
Management Command personnel stated that because of timeframes, cost, and
environmental issues, the Deputy Assistant Secretary of the Army for Budget did not
approve the relocation to Fort Belvoir.

GFEBS Contract Modification
After the Army’s unsuccessful attempt to obtain space, the GFEBS contracting officer
modified the GFEBS contract, on September 6, 2006, to require that the contractor
provide space for the colocation of the 532 GFEBS personnel. The modification
expanded the scope of the GFEBS contract to include a one-time $12 million “build out”
of the leased space and $13.1 million1 in lease payments. To meet the requirements, the
contractor obtained three floors of general office use space, totaling 79,845 square feet, in
a building in Kingstowne, Virginia (Kingstowne office). The business process
reengineering work, originally to be performed at the Defense Finance and Accounting
Service Indianapolis facility, would be performed at this location, along with program
management oversight and development and test efforts.

Army Roles and Responsibilities
Army Contracting Command–National Capital Region
Contracting Center
ACA originally awarded the GFEBS contract. However, in October 2008, the Army
established the Army Contracting Command (ACC) and realigned the responsibilities and
functions of the ACA under ACC. One element under ACC is the National Capital
Region Contracting Center (ACC-NCR), which is responsible for establishing contracts
to acquire information technology products and services for the Army. Accordingly,
ACC-NCR is responsible for the administration of the GFEBS contract. Therefore, only
the ACC-NCR-appointed contracting officer for GFEBS (GFEBS contracting officer)
may modify the GFEBS contract.

Army Program Executive Office Enterprise Information Systems
The Army PEO EIS provides infrastructure and information management systems to the
Army by developing, acquiring, and deploying tactical and management information
technology systems and products and is a core customer of the ACC. PEO EIS personnel
manage all technical and acquisition aspects of the GFEBS program, including oversight
of this program.




1
    The contractor proposed this amount for the first 5 years of the lease.

                                                         2

GFEBS Program Manager
The GFEBS Program Manager is responsible for the management of the GFEBS
program. The GFEBS Program Manager has overall responsibility for planning,
programming, budgeting, and execution of funds through the life of the GFEBS program.

Review of Internal Controls
DoD Instruction (DoDI) 5010.40, “Managers’ Internal Control (MIC) Program
Procedures,” January 4, 2006,2 requires DoD organizations to implement a
comprehensive system of internal controls that provides reasonable assurance that
programs are operating as intended and to evaluate the effectiveness of the controls. We
identified an internal control weakness within the Army. Specifically, the GFEBS
contracting officer did not ensure that PEO EIS personnel met all legal requirements
before approving the addition of the lease to the GFEBS contract. We will provide a
copy of the report to the senior official responsible for internal controls in the Department
of the Army.




2
 This guidance has been superseded by DoDI 5010.40, “Managers’ Internal Control Program (MICP)
Procedures,” July 29, 2010; however the updated version was not in effect when the leasing arrangements
were made.

                                                   3

Finding A. Army Inappropriately Modified the
GFEBS Contract to Include Leased Space
The Army inappropriately modified the GFEBS contract to obtain and modify leased
space for the Kingstowne office. Specifically, the GFEBS contracting officer improperly
entered into an agreement with the contractor to lease office space in the NCR for
GFEBS program personnel. This occurred because the GFEBS contracting officer
approved the addition of the leased space to the GFEBS contract without first making
sure that PEO EIS personnel met all legal requirements. As a result, PEO EIS personnel
circumvented congressional and DoD oversight processes for leased space, resulting in
the authorization of $23.6 million3 in improper payments for the Kingstowne office. In
addition, the U.S. Government potentially lost approximately $0.5 million in interest
when the GFEBS contracting officer’s representative (COR) authorized payments of the
lease in advance.

Improper Leasing of Office Space
The Army did not have authority to modify the GFEBS contract to lease space in the
NCR for the Kingstowne office. Specifically, the GFEBS contracting officer entered into
an agreement with the contractor to lease office space for GFEBS program personnel.
Federal Acquisition Regulation 1.602, “Contracting Officers,” states that the contracting
officer is responsible for ensuring that all requirements of law, executive orders,
regulations, and all other applicable procedures, including clearances and approvals, have
been met before entering into a contract. However, PEO EIS personnel did not get
leasing authority, as required by DoDI 5305.5, “Space Management Procedures, National
Capital Region,” June 14, 1999, before the GFEBS contracting officer modified the
contract to lease and modify the Kingstowne office.

PEO EIS personnel stated they took action to address the inappropriate lease arrangement
after the Under Secretary of Defense for Acquisition, Technology, and Logistics issued
the memorandum, “Leasing Office Space,” March 21, 2007. This memorandum restated
earlier guidance that only the General Services Administration (GSA) or the Washington
Headquarters Services (WHS) has authority to lease office space in the NCR, unless
otherwise authorized by statute or delegation. PEO EIS personnel stated they worked
through the responsible offices to determine how to move the GFEBS personnel out of
the leased space after the issuance of the memorandum. The GFEBS COR indicated that
the U.S. Government personnel assigned to the GFEBS program would move into
GSA-controlled office space in December 2012. PEO EIS personnel submitted a formal
space request in September 2009. PEO EIS personnel stated the space request took
longer than expected because of the significant coordination required to develop the final


3
  This amount represents $8.2 million in payments made for the building modifications, $12.7 million for
the initial 5 years of the lease, and $2.7 million for an additional year of the lease. The amounts paid for
the building modifications and the initial 5 years of the lease were less than the amounts originally
proposed.

                                                      4

way forward. They indicated they did not receive approval for their space request until
May 2011 because of a lengthy approval process. PEO EIS personnel also stated that
they were not immediately authorized to occupy the approved space due to higher
priority moves for other entities.

Lack of Authority to Obtain Leased Space
The GFEBS contracting officer modified the GFEBS contract to include $13.1 million
for leased space in the NCR, without PEO EIS personnel obtaining required statutory
approval to initiate the lease.
DoDI 5305.5 establishes policies and              The GFEBS contracting officer
procedures for the acquisition and               modified  the GFEBS contract to
construction of leased space within the       include $13.1 million for leased space
NCR and requires agencies to provide a             in the NCR, without PEO EIS
request for space in the NCR to WHS.          personnel obtaining required statutory
This Instruction implements                        approval to initiate the lease.
DoD Directive 5110.4, “Washington
Headquarters Services (WHS),” October 19, 2001, in which the Secretary of Defense
assigned WHS the responsibility for acquiring administrative space through GSA for all
DoD Components seeking a location in the NCR. Under Section 301, “Establishment,”
Title 40, “Public Buildings, Property, and Works,” United States Code (40 U.S.C. § 301),
GSA assumed all functions related to acquiring leased space for Federal agencies. GSA
may delegate the authority to lease space; however, PEO EIS personnel did not obtain a
delegation of authority from GSA. Therefore, without the GSA delegation of authority,
the GFEBS contracting officer should not have modified the contract to include the
leased office space.

Lack of Authority to Modify Leased Space
The GFEBS contracting officer modified the GFEBS contract to include $12 million in
building modifications, although PEO EIS personnel did not have authority to authorize
building modifications for the leased space. The building modifications included
facilities services operations, construction, construction operations, furniture, information
technology installation, and information technology operations. DoDI 5305.5 states that
agencies must submit requests for building modifications estimated to cost over $25,000
to WHS for review and approval. This Instruction also requires that these requests for
building modifications in temporary or leased buildings be made on a strictly limited
basis. In addition, 10 U.S.C. § 2353(b), “Contracts: Acquisition, Construction, or
Furnishing of Test Facilities and Equipment,” restricted the installation or construction of
facilities that would not be readily removable or separable without unreasonable expense
or unreasonable loss of value on property not owned by the U.S. Government.

Support for the contract modification identified the acquired space for the Kingstowne
office as being in “shell condition,” with only the main air ducts and sprinkler lines
completed. The lease agreement between the contractor and the property owner stated
that at the end of the lease agreement, alterations of any kind to the premises would
become part of the property and belong to the property owner. WHS personnel stated


                                              5

that they did not recall speaking with PEO EIS personnel regarding GFEBS office space
and had no records indicating that any discussions or requests for space occurred.
Therefore, PEO EIS did not obtain authority for the building modifications, and the
GFEBS contracting officer should not have modified the contract to include the building
modifications.

Contracting Officer Did Not Ensure Compliance With
Legal Requirements
The GFEBS contracting officer inappropriately modified the GFEBS contract because
she did not ensure that PEO EIS personnel met all legal requirements before approving
the addition of the leased space to the GFEBS contract. The Attorney Advisor for the
ACA4 legal office informed the GFEBS contracting officer that the Army

          may not lease, but [it] may pay a contractor for its cost of performance. Thus, to the
          extent that lease costs are a valid cost of performance and reasonable, [it] may pay them.
          In this case, there is the added circumstance that [it] need[s] to be co-located for effective
          performance with the contractor to have the cost of providing space be regarded as a
          valid cost of performance.

However, this opinion did not provide legal authority for the Army to lease through a
third party. Under 40 U.S.C. § 301, GSA has the responsibility for acquiring leased
                                               space for Federal agencies. Without specific
    Without specific legal authority, the      legal authority, the GFEBS contracting
     GFEBS contracting officer should          officer should not have modified the contract
     not have modified the contract to         to include the Kingstowne office. To
       include the Kingstowne office.          mitigate the risk of this happening again,
                                               ACC-NCR should require that the
contracting officers maintain documentation authorizing the lease before awarding DoD
contracts for the leasing of office space in the NCR. We are not making a
recommendation to review actions taken by the GFEBS contracting officer because she
has retired.

Circumvention of Oversight and Improper
Payments Made
PEO EIS personnel circumvented congressional and DoD oversight processes for leased
office space, resulting in the authorization of $23.6 million in improper payments for the
Kingstowne office space. In addition, the U.S. Government potentially lost
approximately $0.5 million in interest when the GFEBS COR authorized payments of the
lease in advance.




4
    As previously discussed, ACC subsumed ACA in 2008.

                                                        6

PEO EIS Circumvented Congressional and DoD Oversight
PEO EIS personnel circumvented congressional and DoD oversight processes for leased
office space by not following the procedures established in DoDI 5305.5. This
Instruction incorporates the requirements of 40 U.S.C. § 3307, “Congressional Approval
of Proposed Projects,” which establishes thresholds that apply to construction, alteration,
purchase, and acquisition of any building Federal agencies use as a public building, and
to lease any space for use for public purposes. Congress must approve any proposed
lease or building modifications that exceed the thresholds, and only GSA may request
this approval. GSA establishes the threshold amounts annually. For FY 2006, the
average annual lease threshold was $2.4 million, and the building modification threshold
was $1.2 million.

The proposed annual lease amounts for the Kingstowne office space averaged
$2.6 million, which exceeded the $2.4 million average annual lease threshold. See
Table 1 for the proposed lease payment information.

                         Table 1. Proposed Annual Lease
                  Lease                    Proposed Annual
                  Period                    Lease Amount
                                             (in millions)
             Year 1–2007                          $2.8
             Year 2–2008                           2.6
             Year 3–2009                           2.1
             Year 4–2010                           2.8
             Year 5–2011                           2.7
               Total                             $13.1*
                Average Annual Lease              $2.6
             *Total does not sum because of rounding.

In addition, the proposed building modification amounts included $8.9 million of
construction and construction operation costs, which far exceeded the $1.2 million
threshold. Since the proposed amounts exceeded the established GSA thresholds, the
lease and building modifications required congressional approval.

Authorization of Improper Payments
The GFEBS COR authorized $23.6 million in improper payments for the Kingstowne
office space. Specifically, he authorized payments of $15.4 million for the lease and
$8.2 million for building modifications. According to the “Improper Payments
Information Act of 2002” (31 U.S.C. § 3321), an improper payment includes any
payments that should not have been made under statutory, contractual, administrative, or
other legally applicable requirements, or payments made for an ineligible service.




                                                7

Without a delegation from GSA to enter into a lease, PEO EIS personnel did not have the
authority to obtain office space for the GFEBS program through a lease. According to
31 U.S.C. § 1501, “Documentary Evidence Requirement for Government Obligations”
(the Recording Statute), an amount may
not be recorded for obligation unless,         Because the funds associated with the
among other things, it has a binding           lease were not authorized by law, the
agreement for a purpose authorized by           payments for the lease and building
law. Because PEO EIS personnel did                 modifications were improper.
not have the authority to enter into a
lease, they were not authorized by law to record the obligation of the funds associated
with the lease. PEO EIS personnel also violated 31 U.S.C. § 1502(a), “Balances
Available” (the Bona Fide Needs rule), which requires that the payment of expenses are
only permitted when obligated consistent with the Recording Statute. Because the funds
associated with the lease were not authorized by law, the payments for the lease and
building modifications were improper. Because of the violations of the Recording
Statute and the Bona Fide Needs rule, the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) (ASA[ALT]) should coordinate with its General Counsel and
the DoD General Counsel Deputies (Fiscal) and (Acquisition and Logistics) to determine
the legal effects of the inappropriate lease and whether any potential Antideficiency Act
(ADA) violations have occurred and provide the Inspector General with the results.

Unless ratified by GSA, the agreement for the Kingstowne office space is unenforceable
against the U.S. Government. PEO EIS personnel cannot circumvent Federal statutory
and regulatory requirements on leasing by incorporating the lease agreement into the
GFEBS contract. PEO EIS should coordinate with WHS to obtain GSA ratification of
the contract. Without ratification, all payments made under this lease arrangement are
improper, and the Secretary of the Army should take appropriate action to resolve the
improper payments, such as recovering the funds.

Monetary benefits will be determined based on any collections the Army makes as a
result of its review of the improper payments. We plan to track monetary benefits during
the audit followup process.

Interest Lost by U.S. Government
The U.S. Government potentially lost approximately $0.5 million in interest when the
GFEBS COR authorized payments of the lease in advance. Instead of making monthly
payments for the lease, the GFEBS COR authorized payment of an entire lease period
(12 or 24 months) in a single advance payment to the contractor. However, the lease
between the contractor and the property owner stipulated that lease payments to the
property owner be made monthly. Since the COR authorized payment of the lease
amounts in advance, the U.S. Government lost the interest it may have earned if the funds
had remained with the U.S. Treasury. Table 2 illustrates the potential interest lost on the
lease payments.




                                            8

                               Table 2. Potential Interest Lost
          Lease Period        Month Paid        Amount Paid               Interest Lost*
                                                 (in millions)             (in millions)
     January 2007–           January 2007             $5.1                     $0.2
     December 2008
     January 2009–           February 2008                     4.7              0.3
     December 2010
     January 2011–           March 2010                        2.8               0
     December 2011
     January 2012–           July 2011                         2.7               0
     December 2012
       Total                                                $15.4**           $0.5
     *
      Zero amounts indicate that interest lost was less than $100,000.

     **
       Total may not sum because of rounding. 


Recommendations, Management Comments, and
Our Response
A.1 We recommend that the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) coordinate with its General Counsel and the DoD
General Counsels (Fiscal) and (Acquisition and Logistics) to determine the legal
effects of the inappropriate lease and whether any additional potential
Antideficiency Act violations have occurred and provide the DoD Inspector General
with the results.

Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) Comments
The Deputy Assistant Secretary of the Army (Procurement), responding for ASA(ALT)
and the Army Office of General Counsel (OGC), agreed and stated that ASA(ALT)
coordinated with the Army OGC regarding the legal effects of the inappropriate lease and
whether any additional potential ADA violations have occurred. The Army OGC’s
preliminary opinion was that no additional potential ADA violations have occurred. The
Deputy Assistant Secretary also stated that the Army OGC was coordinating its
preliminary opinion with the DoD OGCs (Fiscal) and (Acquisition and Logistics) as
recommended.

Our Response
Comments from the Deputy Assistant Secretary of the Army (Procurement) were
responsive. As of July 17, 2012, the Army OGC had not received the opinions of the
DoD OGCs (Fiscal) and (Acquisition and Logistics). ASA(ALT) personnel stated that
when they received these opinions, they would provide them to the DoD Office of
Inspector General. As of the date of this report, the opinions were still outstanding. The
proposed actions met the intent of the recommendation.



                                                    9

A.2 We recommend that the Program Executive Officer, Enterprise Information
Systems, coordinate with the Washington Headquarters Services to submit a
request to the General Services Administration to obtain ratification of the contract.
If the General Services Administration does not ratify the contract, the Secretary of
the Army should take appropriate actions to resolve the $23.6 million in improper
payments made for the lease and building modifications.

Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) Comments
The Deputy Assistant Secretary of the Army (Procurement), responding on behalf of the
Program Executive Officer, Enterprise Information Systems, agreed and stated that
PEO EIS would submit a ratification request to the Administrative Assistant to the
Secretary of the Army, Real Estate and Facilities Division, no later than July 31, 2012.
He also stated that according to Army Regulation 1-21, “Administrative Space
Management,” May 8, 1985, the Administrative Assistant is the Army’s liaison with
WHS, which is the liaison to GSA. If GSA does not ratify the contract, the Deputy
Assistant Secretary stated that ASA(ALT) would evaluate the recovery options advised
by the Army OGC, to include a possible waiver under the equitable theories of Quantum
Meruit (the value of services provided) and Quantum Valebant (the value of goods).

Our Response
Comments from the Deputy Assistant Secretary of the Army (Procurement) were
responsive, and the actions met the intent of the recommendation. PEO EIS personnel
stated that the ratification request was submitted to the Administrative Assistant to the
Secretary of the Army, Real Estate and Facilities Division on August 16, 2012.

A.3 We recommend that the Executive Director, Army Contracting Command–
National Capital Region Contracting Center, develop and implement procedures
requiring that contracting officers maintain in their contracting files the
Washington Headquarters Services documentation authorizing the lease of the
requesting activity before approving DoD contracts or modifications containing the
leasing of office space in the National Capital Region.

Army Contracting Command–National Capital Region Comments
The Executive Director, ACC–NCR, agreed and stated that ACC-NCR would reiterate to
its workforce the requirement not to enter into contracts for office space leases in the
NCR unless requesting activities obtain the required approval(s) to lease space in the
NCR. In addition, he stated that ACC would develop a Command Policy Letter that sets
forth policies and procedures for the acquisition of federally leased administrative space
occupied by DoD Components located in the NCR. The Executive Director indicated
that these actions would be completed by September 2012.

Our Response
Comments from the Executive Director, ACC–NCR, were responsive, and the proposed
actions met the intent of the recommendation.

                                             10

Finding B. Potential ADA Violations for
Lease Payments and Building Modifications
for the Kingstowne Office
GFEBS personnel inappropriately authorized $5.5 million in annual Operation and
Maintenance (O&M) funds for lease payments for the Kingstowne office. In addition,
PEO EIS personnel violated 10 U.S.C. § 2353 when they used at least $4.7 million5 in
Research, Development, Test, and Evaluation (RDT&E) funds for building modifications
associated with the Kingstowne office space. PEO EIS personnel stated that RDT&E
funds were the only funds available at the time. As a result of inappropriately authorizing
O&M funds and using funding for purposes other than those authorized, GFEBS and
PEO EIS personnel may have violated the Antideficiency Act (ADA).

O&M Funds Not Available for Lease Expenses
GFEBS personnel inappropriately authorized $5.5 million in annual O&M funds for lease
payments for the Kingstowne office that met a legitimate, or bona fide, need in the
following fiscal year. According to the Bona Fide Needs rule, the balance of an
appropriation or fund limited for obligation to a definite period is available only for
payment of expenses properly incurred during the period of availability. As illustrated in
Table 3, GFEBS personnel inappropriately used FY 2010 and FY 2011 O&M funds to
cover lease expenses for 2011 and 2012, which violated the Bona Fide Needs rule.

                              Table 3. Funding of Lease Expenses
       Fiscal Year of            Period of        Lease Period                     Lease Expense
     O&M Funds Used             Availability                                        (in millions)
    2010                      October 2009–     January 2011–                           $2.8
                              September 2010    December 2011
    2011                      October 2010–     January 2012–                              2.7
                              September 2011    December 2012
      Total                                                                               $5.5

When asked for their justification for using FY 2010 and FY 2011 funds for these lease
expenses, GFEBS personnel stated that the terms of the contract required payment of the
leased space in advance; therefore, they used the funds available at the time. However,
GFEBS personnel were unable to provide evidence that this requirement was in the
contract. Further, the contracting officer stated that the contract did not contain a clause
requiring advance payment.



5
  The proposed amount for building construction costs was $8.9 million and the disbursed amount was
$6.5 million. In addition, the contract file did not contain sufficient detail to determine how $1.8 million
(rounded) in credits were allocated back to the contract for building modification purposes. As a result, we
excluded this amount from the total of funds used for the construction.

                                                    11

Use of RDT&E Funds
PEO EIS personnel violated 10 U.S.C. § 2353 when they used at least $4.7 million in
RDT&E funds for building modifications associated with the Kingstowne office space.
Specifically, they violated 10 U.S.C. § 2353 (a) and (b)(1). According to
10 U.S.C. § 2353(a), RDT&E funds can be used to provide research, developmental, or
test facilities and equipment that the Secretary of the Military Department concerned
determines to be necessary for the performance of the contract. However, it does not
authorize the use of RDT&E funds for new construction or improvements having general
utility. In addition, 10 U.S.C. § 2353(b)(1) restricts the installation or construction of
facilities that would not be readily removable, or separable, without unreasonable loss of
money on nongovernmental property, unless the contract provides for reimbursement of
the fair value at the completion of the contract.

The contractor proposal identified the Kingstowne office space as being in “shell
condition,” with only the main air ducts and sprinkler lines completed. The construction
of the three floors of general office space included installation of items such as heating,
ventilation, and air-conditioning; plumbing; electrical work; doors; countertops; and
carpeting. In addition, the lease agreement between the contractor and the property
owner stated that the office space was for
general office use. PEO EIS personnel               PEO EIS personnel violated the
stated that they used the RDT&E funds to          terms of 10 U.S.C. § 2353(a) when
make the building modifications to the               they expended $4.7 million of
office space because, at that time, those         RDT&E funds to improve “general
were the only funds provided to the                          utility” space.
GFEBS program, as it was in the
developmental phase. The PEO EIS budget officer who certified the RDT&E funds for
the GFEBS program has since retired. PEO EIS personnel violated the terms of
10 U.S.C. § 2353(a) when they expended $4.7 million of RDT&E funds to improve
“general utility” space.

Furthermore, the lease agreement between the contractor and the property owner stated
that at the end of the lease agreement, alterations of any kind to the premises would
become part of the property and belong to the property owner. Thus, PEO EIS personnel
violated the terms of 10 U.S.C. § 2353(b)(1) because the building modifications were not
removable and the Army would not be reimbursed for the modifications. The violations
of 10 U.S.C. § 2353(a) and (b)(1) resulted in a violation of 31 U.S.C. § 1301(a),
“Application” (the Purpose Statute). The Purpose Statute states that the appropriations
are to be applied “only to the objects for which the appropriations were made except as
otherwise provided by law.” Because PEO EIS personnel used RDT&E funds to improve
a general utility facility and make building modifications that were not readily
removable, they violated the Purpose Statute.

Potential Antideficiency Act Violations
GFEBS personnel violated the Bona Fide Needs rule and PEO EIS personnel violated the
Purpose Statute, leading to potential ADA violations. GFEBS personnel used

                                            12

$5.5 million in annual O&M funds for lease payments that met bona fide needs in the
following fiscal years. In addition, PEO EIS personnel used at least $4.7 million in
RDT&E funds to improve a general utility facility and make building modifications that
were not readily removable. The Deputy Assistant Secretary of the Army (Financial
Operations) should comply with DoD Regulation 7000.14-R, “Financial Management
Regulation,” Volume 14, Chapter 3, “Preliminary Reviews of Potential Violations,” to
report and initiate a preliminary review of the potential ADA violations for the GFEBS
contract.

Recommendations, Management Comments, and
Our Response
B. We recommend that the Deputy Assistant Secretary of the Army (Financial
Operations), Office of the Assistant Secretary of the Army (Financial Management
and Comptroller):

       1. Comply with DoD Regulation 7000.14-R, “Financial Management
Regulation,” Volume 14, Chapter 3, “Preliminary Reviews of Potential Violations,”
in reporting a potential Antideficiency Act violation and initiating a preliminary
review of

          a. the $5.5 million in Operation and Maintenance, Army, funds used for
lease payments and

          b. the $4.7 million in Research, Development, Test, and Evaluation funds
used for building modifications.

       2. Conduct a formal investigation to determine responsible officials and
recommend appropriate corrective actions if the investigation determines that a
reportable Antideficiency Act violation has occurred.

       3. Submit a formal report to the Under Secretary of Defense (Comptroller)/
Chief Financial Officer, DoD, and provide a copy of the preliminary review report
and the final investigation report to the DoD Office of Inspector General.

Deputy Assistant Secretary of the Army (Financial
Operations) Comments
The Deputy Assistant Secretary of the Army (Financial Operations) agreed. In response
to Recommendation B.1.a, he stated that the GFEBS COR agreed that O&M funds were
improperly used in FYs 2010-2011 to fund advance lease payments. He indicated that
the contract funding was being modified and that all corrections should be completed by
July 16, 2012. For Recommendation B.1.b, he stated that if the final report continued to
identify a potential ADA violation with respect to the building modifications, his office
would direct ASA(ALT) to report a potential ADA violation and initiate a preliminary
investigation in accordance with DoD Regulation 7000.14-R, Volume 14, Chapter 3.



                                            13

In response to Recommendations B.2 and B.3, the Deputy Assistant Secretary stated that
if the investigation determined a reportable ADA violation occurred, his office would
conduct a formal investigation to determine the responsible officials and recommend
appropriate corrective actions. Upon completion of the formal investigation, his office
would submit the formal report to the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, and provide results to the DoD Office of Inspector General.

Our Response
Comments from the Deputy Assistant Secretary of the Army (Financial Operations) were
responsive, and the proposed actions met the intent of the recommendations. We will
verify that all of the investigations and reporting required by DoD Regulation 7000.14-R
Volume 14, Chapter 3 have been conducted for both of the potential ADA violations. In
addition, we contacted the current contracting officer for an update on the contract
modification regarding the O&M funds. He stated that the contract modification will be
completed by August 31, 2012.




                                           14

Appendix. Scope and Methodology
We conducted this performance audit from September 2011 through May 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To determine whether the Army appropriately modified the GFEBS contract to include
leasing of the Kingstowne, Virginia, office space, we spoke to and reviewed contract
documentation provided by personnel from the GFEBS Program Management Office;
ACC-NCR; PEO EIS; GSA; WHS; Army Installation Management Command; Under
Secretary of Defense for Acquisition, Technology, and Logistics; Real Estate and
Facilities–Army, and the system integrator (contractor). In addition, we researched
applicable laws and regulations relating to the leasing and funding of office space in the
NCR.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Assistance
We did not use technical assistance for the audit.

Prior Coverage on Inappropriate Leasing Arrangements
During the last 5 years, the Department of Defense Inspector General (DoD IG) issued
one report discussing inappropriate leasing arrangements. Unrestricted DoD IG reports
can be accessed at http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Made Through the
Department of the Interior,” January 16, 2007




                                            15

Assistant Secretary of the Army (Acquisition, Logistics, and
Technology Comments




                      Click to add JPEG file




                                     16
Click to add JPEG file




             17
Deputy Assistant Secretary of the Army (Financial
Operations) Comments




                     Click to add JPEG file




                                   18
Click to add JPEG file




             19
Army Contracting Command – National Capital Region
Comments




                    Click to add JPEG file




                                 20
Click to add JPEG file




             21
Click to add JPEG file




             22
Click to add JPEG file




             23
